                                                         IG-01-041




AUDIT
                           PROCUREMENT WORKFORCE PLANNING
REPORT
                                    September 27, 2001




                              OFFICE OF INSPECTOR
                                   GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Audits
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity
of each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CCI              Consolidated Contracting Initiative
DOD              Department of Defense
DODIG            Department of Defense Inspector General
FAR              Federal Acquisition Regulation
FASA             Federal Acquisition Streamlining Act
FY               Fiscal Year
GAO              General Accounting Office
GPRA             Government Performance and Results Act
NCIP             NASA Contracting Intern Program
OFPP             Office of Federal Procurement Policy
OMB              Office of Management and Budget
OPM              Office of Personnel Management
W                                                                        September 27, 2001




TO:             A/Administrator

FROM:           W/Inspector General

SUBJECT:        INFORMATION: Procurement Workforce Planning
                Report Number IG-01-041

The NASA Office of Inspector General has completed an audit of Procurement Workforce
Planning. We found that NASA has taken several positive steps to plan for its future procurement
workforce needs. However, the number of potential procurement retirees increased from about 40
percent (269 of 679 contract specialists) as of September 1997 to about 42 percent (278 of 669
contract specialists) as of October 2000. As a result, NASA does not have the assurance that it
will have enough adequately trained procurement staff at NASA Centers to effectively handle
procurement workload demands.

Background

NASA is participating in several acquisition reform initiatives intended to streamline the procurement
process and to minimize the overhead expenses associated with procurement actions. These
initiatives include Simplified Acquisition methods, Multiple Award Contracts, and the Consolidated
Contracting Initiative. Also, working with the Office of Federal Procurement Planning (OFPP)
guidance, NASA has established specific criteria regarding the level of training its procurement
workforce must complete.

Recommendations

We recommended that the Associate Administrator for Procurement continue to pursue education,
training, and development of staff to meet the required certification levels for existing staff. This
action would ensure that the existing procurement workforce has the appropriate training and
certification necessary to function at maximum efficiency. We also recommended that the Associate
Administrator for Procurement evaluate the ongoing results of the NASA Contracting Intern
Program (NCIP) to determine whether changes may be necessary to increase the retention rate of
interns. By increasing the retention rate, NASA will achieve a greater return on the resources
invested in training interns. We further recommended that the Associate Administrator for
Procurement
                                                                                                   2

continue to work with OFPP to develop procurement performance measures that may be used to
evaluate staffing requirements. With the availability of these performance measures, NASA should
be able to more accurately assess its procurement workforce needs and more effectively plan to
meet those needs.

Management Response

Management concurred with the recommendations. NASA currently has 85 percent of its targeted
workforce certified at the correct certification levels and will work aggressively to encourage the
remaining 15 percent to pursue the necessary steps to become certified. To improve the retention
rate of the NCIP, this year (fall 2001), NASA plans to recruit and hire only college graduates as
interns. NASA was the first agency to submit to OFPP and to receive approval for its NASA
Career Acquisition Training Handbook. Management will continue to work with and provide data
to OFPP on education and training of its acquisition workforce.

Details on the status of the recommendations are in the Recommendations section of the report.


[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Procurement Workforce Planning
PROCUREMENT WORKFORCE PLANNING
W                                                                        September 27, 2001


TO:            H/Associate Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Procurement Workforce Planning
               Assignment Number A-00-058-00
               Report Number IG-01-041

The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response has been incorporated into
the body of the report. We consider management’s corrective actions responsive for all
recommendations, and the actions are sufficient to close the recommendations for reporting
purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program Director,
Procurement Audits, at (818) 354-5634; Mr. Tony A. Lawson, Program Manager, at (301) 286-
6524; or Mr. Walter K. Curtis, Auditor-in-Charge, at (818) 354-9746. We appreciate the
courtesies extended to the audit staff. The final report distribution is in Appendix D.


[original signed by]
Alan J. Lamoreaux

Enclosure
                                                                 2




cc:
AI/Associate Deputy Administrator
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
JR/Director, Contractor Industrial Relations Office
HK/Chair, Headquarters Exchange Council
ARC/Director, Ames Research Center
DFRC/Director, Dryden Flight Research Center
GRC/Director, Glenn Research Center at Lewis Field
GSFC/Director, Goddard Space Flight Center
JSC/Acting Director, Lyndon B. Johnson Space Center
KSC/Director, John F. Kennedy Space Center
LaRC/Director, Langley Research Center
MSFC/Director, George C. Marshall Space Flight Center
SSC/Acting Director, Stennis Space Center
JPL/Manager, NASA Management Office, Jet Propulsion Laboratory
Contents

Executive Summary, i

Introduction, 1

Background, 2

Finding and Recommendations, 3

     Availability of Adequately Trained Procurement Personnel, 3

Appendix A – Objectives, Scope, and Methodology, 9

Appendix B – Acquisition Reform Initiatives, 11

Appendix C – Management’s Response, 13

Appendix D – Report Distribution, 17
                           NASA Office of Inspector General
IG-01-041                                                                          September 27, 2001
 A-00-058-00

                           Procurement Workforce Planning

                                     Executive Summary
Background. NASA is participating in several acquisition reform initiatives that are intended to
streamline the procurement process and minimize the overhead expenses associated with
procurement actions. Some of these initiatives include Simplified Acquisition methods, Multiple
Award Contracts, Purchase Cards, and the Consolidated Contracting Initiative.

NASA has established specific criteria regarding the level of training its procurement workforce
must complete. The OFPP also provides guidance on education, training, and career development
for procurement personnel. Additionally, NASA has established several performance measures for
procurement, including the following:

•   Government Performance and Results Act. NASA provides performance measures in
    areas such as performance-based contracting and the use of small disadvantaged businesses.
    NASA does not provide any information under GPRA related to the number or experience of
    its procurement workforce.

•   OFPP Acquisition System Performance Measures Report. Annually, NASA provides
    acquisition system information to the OFPP on education and training; cost, schedule, and
    performance; and purchase card usage. This information includes the number and percentage of
    procurement employees who have met the education and training requirements.

Objectives. The overall objective was to determine whether the NASA Office of Procurement
was adequately planning for its procurement workforce needs. The specific objectives were to
determine whether: (1) adequately trained procurement staff will exist at Centers based on
procurement forecasts; (2) the contracting intern program has been effective in recruiting and
retaining new staff; and, (3) appropriate investments in education, training, and development exist
for procurement staff.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results of Audit. NASA has taken several positive steps to plan for its future procurement
workforce needs. Despite the efforts, however, NASA does not have assurance it will have enough
adequately trained procurement staff at NASA Centers to effectively handle procurement workload
demands. A NASA Office of Procurement study performed in 1997 showed that Agencywide
attrition of procurement employees
through retirement could be as high as 40 percent (269 of 679 contract specialists) by the end of
2007. In response to the study, the Office of Procurement developed a leadership plan and
established a contracting intern program. That office also increased its emphasis on education,
training, and development of existing procurement staff. Our audit showed that the number of
potential procurement retirees has increased from about 40 percent (269 of 679 contract
specialists) as of September 1997 to about 42 percent (278 of 669 contract specialists) as of
October 2000.

NASA has also initiated a number of acquisition reform initiatives that affect the number and types
of contracts in an effort to streamline the acquisition process, including the involvement of
procurement personnel. Further, the Agency is reporting several procurement performance
measures for the Government Performance and Results Act (GPRA), and the OFPP is developing a
"cost to spend" metric to evaluate procurement processing costs. The GPRA information the
Agency is reporting, however, does not include performance measures to determine whether
sufficient procurement personnel will be available to effectively handle the projected workloads.

Recommendations. The Associate Administrator for Procurement should: (1) continue to pursue
education, training, and development of staff to meet required certification levels for existing staff;
(2) evaluate the ongoing results of the NCIP to determine whether changes may be necessary to
increase the retention rate of interns; and (3) continue to work with OFPP to develop procurement
performance measures that may be used to evaluate staffing requirements.

Management’s Response. Management concurred with all the recommendations and has
implemented the recommended actions.

Evaluation of Management’s Response. We consider management’s implemented actions
responsive to the recommendations. Our detailed response to management’s comments is in the
recommendations section of the report.




                                                   ii
                              NASA Office of Inspector General

IG-01-041                                                                         September XX, 2001
 A-00-058-00

                              Procurement Workforce Planning

Introduction

The NASA Office of Inspector General (OIG) has completed an audit of procurement workforce
planning. We performed this audit because of increasing concerns about human capital, an issue
confronting many Federal agencies as a significant portion of the workforce becomes eligible for
retirement from Federal service. The General Accounting Office (GAO) has defined human capital
as people whose value can be enhanced through investment.1

In 1997, the OFPP directed Federal agencies to take actions in the areas of accession, 2 education,
training, and career development to ensure an adequate number of qualified personnel within their
respective acquisition workforces.3 The NASA OIG identified human capital as one of its top 10
management challenges for fiscal year (FY) 2001, stating that NASA faces the loss of significant
procurement expertise through the year 2007. NASA must ensure proper levels of staffing to
perform contracting requirements and properly monitor prime contracts and subcontracts. The
Comptroller General also has testified on the issue of human capital.4 Further, the GAO has
reported to the Congress on workforce issues and recently added human capital to its list of top 10
management concerns that Federal agencies must face.5

In May 2000, the NASA Inspector General testified before the Congress on Federal employee
incentives to attract and maintain a skilled workforce. Her testimony addressed some of the effects
of NASA's failure to recruit, train, and retain the proper mix of a skilled workforce.6 Her testimony
also addressed the problems faced by the NASA OIG itself in recruiting certain skilled information
technology (IT) professionals such as an IT criminal investigator in the Silicon Valley area of
California because of the high cost of housing and the inability to offer a housing allowance similar to
that offered by private industry. The Inspector General later testified before the Congress on the




1
  On February 1, 2001, the Comptroller General (who heads the GAO) testified before the Congress on the issue
of human capital, stating that "today's Federal human capital strategies are not appropriately constituted to meet
the current and emerging needs of the Federal government and the nation's citizens."
2
  "Accession" is the acquisition of additional personnel.
3
  The OFPP Policy Letter No. 97-01, is dated September 12, 1997.
4
  See footnote 1.
5
  The GAO Letter B-285463 to the Chairman, Committee on Commerce, Science, and Transportation, United
States Senate, is dated August 15, 2000.
6
  The Inspector General testified before the Senate Subcommittee on Oversight of Government Management,
Restructuring and the District of Columbia on May 2, 2000.
lack of management resources contributing to unsuccessful missions7 and, after years of focusing on
downsizing efforts, NASA's need to develop a workforce strategy addressing recruitment, training,
and retention of personnel.8

The overall audit objective was to determine whether NASA is adequately planning for its
procurement workforce needs. Details on our audit objectives, scope, and methodology are in
Appendix A.

Background

Acquisition Reform Initiatives. NASA is participating in several acquisition reform initiatives that
are intended to streamline the procurement process and minimize the overhead expenses associated
with procurement actions. Some of these initiatives include Simplified Acquisition methods, Multiple
Award Contracts, Purchase Cards, and the Consolidated Contracting Initiative. (See Appendix B
for details on these initiatives.)

NASA Performance Measures. NASA has established specific criteria 9 regarding the level of
training its procurement workforce must complete.10 The OFPP also provides guidance on
education, training, and career development for procurement personnel. Additionally, NASA has
established several performance measures for procurement, including the following:

•   Government Performance and Results Act. NASA provides performance measures in
    areas such as performance-based contracting and the use of small disadvantaged businesses.
    NASA does not provide any information under GPRA related to the number or experience of
    its procurement workforce.

•   OFPP Acquisition System Performance Measures Report. Annually, NASA provides
    acquisition system information11 to the OFPP on education and training;


7
  In this testimony, the Inspector General was citing findings of the Mars Climate Orbiter Mishap Investigation
Board’s Report on Project Management. This report, dated March 13, 2000, states that the lack of adequate
staffing contributed, in part, to the mission failure.
8
  The Inspector General testified before the House Subcommittee on National Security, Veterans Affairs, and
International Relations on March 15, 2001.
9
  The NASA Procurement Career Development Training Policy, dated March 14, 1998, prescribes procedures for
a NASA career development program for procurement personnel consistent with the general policies and
authorities stated in the OFPP Letter 97-01, "Policy Letter on Procurement System Education, Training and
Experience Requirements for Acquisition Personnel," dated September 25, 1997.
10
   Section 4307 of the Clinger-Cohen Act (Public Law 104-106) requires, among other matters, that each executive
agency establish policies and procedures for the effective management of the acquisition (that is, procurement)
workforce of the agency. This section addresses the education, training, career development, and performance
incentives that should be offered to each member of the procurement workforce. This section also discusses the
achievement of an agency's cost, schedule, and performance goals and recommends that agencies relate this
achievement to performance incentives for the procurement workforce.
11
   Section 4307 of the Clinger-Cohen Act (Public Law 104-106) requires agencies to collect and maintain
standardized acquisition (that is, procurement) workforce information.

                                                       2
        cost, schedule, and performance; and purchase card usage. This information includes the
        number and percentage of procurement employees who have met the education and training
        requirements.

Department of Defense Inspector General Report.12 A recent Department of Defense
Inspector General (DODIG) report concluded that "… there is cause for serious concern in the
likelihood of the DOD acquisition workforce losing experienced personnel through attrition by FY
2005 and in the overall disconnects between workload forecasts, performance measures,
productivity indicators, and plans for workforce sizing and training." The DODIG identified the
following impacts of the reduced acquisition workforce:

        •    increased backlog in closing out completed contracts,
        •    increased program costs resulting from contracting for technical support versus using in-
             house technical support,
        •    insufficient personnel to fill in for employees on deployment,
        •    insufficient staff to manage requirements,
        •    reduced scrutiny and timeliness in reviewing acquisition actions,
        •    personnel retention difficulty,
        •    increase in procurement action lead time,
        •    some skill imbalances, and
        •    lost opportunities to develop cost savings initiatives.

Office of Personnel Management (OPM) Special Study. In December 1999, the OPM issued
a Report of a Special Study entitled “The Three Rs: Lessons Learned from Recruitment,
Relocation, and Retention Incentives.” This study addresses a variety of incentives that Federal
agencies and other organizations are using or can use to recruit and retain key personnel. These
incentives include various recruiting and retention bonuses and allowances. The study also cites
tuition forgiveness as a tool used successfully in the non-Federal public and private sector but not
widely available in the Federal sector.

Availability of Adequately Trained Procurement Personnel

Change in the Number of Potential Retirees. In 1997, the NASA Office of Procurement
estimated that 23 percent of its Agencywide procurement workforce would be retiring within 10
years under a better case scenario 13 and that 40 percent would be retiring within 10 years under a
worst case scenario.14 During this audit, we found these NASA-wide figures had increased to 27
percent and 42 percent, respectively, as of October 2000. This resulted in an overall Agencywide
increase of 17 percent and 5 percent, respectively. At Goddard Space Flight Center (Goddard)
and Johnson Space Center (Johnson), the two NASA Centers with the highest annual procurement


12
   DoD Acquisition Workforce Reduction Trends and Impacts, Report No. D-2000-088, February 29, 2000.
13
   A better case scenario is one in which the employee works 5 years beyond the date at which he/she becomes
eligible to retire.
14
   A worst case scenario is one in which the employee retires immediately upon becoming eligible.

                                                      3
expenditures, management estimated significant increases in projected 10-year attrition through
retirement, as follows:

                                 Projected Procurement Workforce Attrition
                                            through Retirement

                                 Better Case                                       Worst Case

                        Percentage of                                      Percentage of
                      Potential Retirees                                 Potential Retirees

                                                 Increase in                                       Increase in
                                                  Potential                                         Potential
     Location        1997           2000          Retirees             1997            2000         Retirees

Goddard                12             16         33 percent              25             29         16 percent

Johnson                22             26         18 percent              35             42         20 percent




Recent NASA Procurement Management Survey Reports at Goddard15 and Johnson16 cited the
following concerns regarding the loss of experienced staff:

•     During interviews with the Office of Procurement survey team, procurement customers at
      Goddard expressed the opinion that backlogs and delays in the acquisition process are a
      continuing result of a previous reduction in the procurement workforce.

•     The Johnson survey report states that procurement staffing at Johnson decreased by about 30
      percent from FY 1996 to FY 2000. (During our audit, 25 percent (27 of 109) of the
      procurement workforce was eligible or would become eligible to retire within the next 5 years.)
      In interviews with the Office of Procurement survey team, procurement personnel, customers,
      and the Johnson legal staff, expressed concerns about the organization’s ability to sustain its
      level of performance if the staffing level remains as it is or decreases.

Other NASA Centers may also be affected by the loss of experienced staff. For example, an
October 2000 Procurement Management Survey Report at Langley Research Center (Langley)
discussed turnover in the procurement workforce from 1998 through 2001. Fifteen (21 percent) of
the 72 contract specialists on board in October 2000 had been at Langley 2 years or less. Further,
5 of the 15 specialists were entry-level employees.

In 1997, Marshall Space Flight Center (Marshall) showed potential retirement of 20 percent and 38
percent for its better and worst case scenarios, respectively. These percentages increased to 26
percent and 40 percent, respectively, at the time of our audit in October 2000.
15
   The NASA Office of Procurement conducted the Procurement Management Survey at Goddard in January
2001. We extracted this information from the draft survey report; the final report has not yet been issued.
16
   The Johnson Space Center Procurement Management Survey Report was issued March 10, 2000.

                                                       4
NASA Efforts to Address Workforce Needs

NASA procurement obligations have remained relatively level from FY 1993 through FY 2000.
The number of procurement personnel, however, declined from 1,036 in FY 1993 to 740 in FY
2000 as shown in the following chart. NASA lost an additional 11 procurement personnel from
November 2000 through February 2001--a 30-percent reduction since 1993.

                         Comparison of Procurement Staffing to Annual Obligations
                     1,400                                                     $14,000

                     1,300                                                     $13,000




                                                                                          Obligations in Millions
                     1,200                                                     $12,000
         Staffing




                     1,100                                                     $11,000

                     1,000                                                     $10,000

                       900                                                     $9,000

                       800                                                     $8,000

                       700                                                     $7,000
                             1993   1994 1995 1996   1997 1998 1999    2000
                                                                                      Staffing
                                              Fiscal Year
                                                                                      Obligations

                    Comparison of Procurement Staffing* to Annual Obligations
                                        FY 1993--FY 2000
*
 Procurement staffing includes the GS-1102 Contract Specialist, GS-1105 Purchasing Specialist, and
GS-1106 Procurement Clerks and Technicians. These positions manage, supervise, perform, or develop policies
and procedures for professional work involving the procurement of supplies, services, construction, and
research and development.



During the last 3 years, NASA has initiated several actions to address a potential shortage in its
workforce.

Functional Leadership Plan. A May 2000 NASA Office of Procurement Functional Leadership
Plan17 describes the Office's overall purpose and direction including goals, objectives, and
performance measures to be used to evaluate success. The plan identifies a requirement for
contract specialists to complete specific education requirements, developmental assignments, and
mandatory training before being promoted. The plan also addresses major reform initiatives
(discussed earlier in this report in the section entitled, Acquisition Reform Initiatives) and measures
of success. Because the plan is less than 1 year old, however, NASA has not yet been able to
quantify the success of any actions on the procurement workforce.

17
     The NASA Strategic Management Handbook requires a Functional Leadership Plan.

                                                            5
NASA Contracting Intern Program (NCIP). The NCIP goal is to provide NASA a valuable
resource of candidates for employment. The program consists of a co-op phase18 and an intern
phase.19 NASA selected 10 students in 1999 to participate during the first year of the NCIP. Of
the 10 students, only 2 are still employed at NASA. In 2000, the program's second year, NASA
selected 19 students, and as of the time of our audit, 17 were still participating in the program. The
effectiveness of the program can be better measured after the second-year students have completed
the intern phase.

Education, Training, and Development. The NASA Office of Procurement has increased its
emphasis on the education, training, and development of procurement personnel. This emphasis
imposes educational requirements to become a contract specialist and annual continuing education
requirements to remain in that career field. As a result of this increased emphasis, the percentage of
contract specialists who are certified at the level required for the work performed20 has increased in
the last year. Specifically, the number of personnel in the GS-12 contract specialist series21,22
certified at Level II23 has increased from 90 of 208 (43 percent) in June 1999 to 153 of 218 (70
percent) in September 2000. Similarly, the number of GS-13 through GS-15 contract specialists
certified at Level III24 has increased from 152 of 348 (44 percent) to 266 of 333 (80 percent)
during the same period. However, NASA still has contract specialists who are not certified at the
level commensurate with their grade level and has new contract specialists entering the workforce
who require certification.

The NASA Office of Procurement has made appropriate investments in the education, training, and
development of procurement personnel. The objective of the training program is to provide
procurement professionals a standardized, consistent, and high-quality training program to prepare
them to meet career changes and challenges. Career development is accomplished through a


18
   The co-op phase involves hiring college students in their sophomore or junior year and assigning them to
work at a specific NASA Center. The student alternates time spent attending school and working at the Center
and completes at least 640 hours at the Center before graduation. Assuming successful job performance, upon
graduation, the student may be hired as a permanent NASA employee and assigned to another NASA Center.
19
   The intern phase covers the remainder of the 30-month NCIP during which the new employee completes three
or four required contracting courses while working in the procurement function.
20
   NASA requires that GS-1102 contract specialists complete specific contracting courses to receive certifications
that correspond to the grade level at which they are working. The certification levels are I, II, and III.
21
   The general schedule is the broadest subdivision of the classification system covered by Title 5, U.S. Code.
The general schedule includes a range of levels of difficulty and responsibility for positions for grades GS-1 to
GS-15. "GS" designates the general schedule for supervisory and nonsupervisory positions at all of those grade
levels.
22
   A series is a subdivision of an occupational group consisting of positions similar as to a specialized line of
work and qualification requirements. A title and number such as the Contracting Series, GS-1102, or Purchasing
Series, GS-1105, designate series.
23
   The Level II Contract Specialist's development continues, including on-the-job rotational assignments, but the
length of time an employee spends in each position generally increases.
24
   The Level III Contract Specialist possesses in-depth knowledge in his or her functional areas and of the entire
procurement process.


                                                        6
combination of work assignments, job rotation, procurement-specific training courses, education,
and self-development programs.

Conclusion

NASA has made efforts to plan for future procurement workforce needs. However, the Agency
must continue to pursue initiatives to obtain sufficient experienced procurement personnel given the
acquisition reform changes that affect the number and type of contracts. Other initiatives could
include, for example, the consideration of recruitment and retention bonuses and allowances,
relocation bonuses and incentives, and tuition forgiveness.

Recommendations, Management’s Response, and Evaluation of
Response

The Associate Administrator for Procurement should:

        1. Continue to pursue education, training, and development of staff to meet
           required certification levels for existing staff.

Management’s Response. Concur. The Associate Administrator stated that NASA currently
has 85 percent of its targeted workforce certified at the correct certification levels and will work
aggressively to encourage the remaining 15 percent to pursue the necessary steps to become
certified. See Appendix C for the complete text of management’s comments.

Evaluation of Response. Management’s completed actions are responsive to the
recommendation. Management’s actions are sufficient to close the recommendation for reporting
purposes.

        2. Evaluate the ongoing results of the NCIP to determine whether changes may be
           necessary to increase the retention rate of interns.

Management’s Response. Concur. The Associate Administrator stated that to improve the
retention rate, NASA is planning this year (fall 2001) to recruit and hire only college graduates as
interns. They will be full-time, permanent NASA employees.

Evaluation of Response. Management’s completed actions are responsive to the
recommendation. Management’s actions are sufficient to close the recommendation for reporting
purposes.

        3. Continue to work with OFPP to develop procurement performance measures
           that may be used to evaluate staffing requirements.




                                                   7
Management’s Response. Concur. The Associate Administrator stated that NASA has worked
closely with OFPP in developing performance measures and continues to provide data to OFPP on
education and training of the acquisition workforce.

Evaluation of Response. Management’s completed actions are responsive to the
recommendation. Management’s actions are sufficient to close the recommendation for reporting
purposes.




                                               8
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether the NASA Office of Procurement was adequately
planning for its procurement workforce needs. The specific objectives were to determine whether:

•   Adequately trained procurement staff will exist at Centers based on procurement forecasts;
•   the contracting intern program has been effective in recruiting and retaining new staff; and,
•   appropriate investments in education, training, and development exist for procurement staff.

Scope and Methodology

We reviewed applicable regulations and policies and documentation from NASA and other
Government agencies.

During the audit, we:

•   Researched Office of Management and Budget guidance, the Federal Acquisition Regulation
    (FAR), and the NASA FAR Supplement for criteria related to the qualifications and workload
    of procurement personnel.

•   Obtained current procurement staffing information from each NASA Center to establish the
    number of procurement personnel and the certification level and training of those personnel.

•   Obtained historical procurement data and procurement projections from each NASA Center to
    compare to the procurement staffing information that the Office of Procurement provided.

•   Reviewed and discussed the workforce planning process with procurement managers at NASA
    Headquarters, Goddard, Johnson, and Marshall.

•   Evaluated the effectiveness of the NASA Contracting Intern Program.




Appendix A

Audit Field Work



                                                 9
We conducted audit field work from September 2000 through February 2001 at NASA
Headquarters, Goddard Space Flight Center, Johnson Space Center, and Marshall Space Flight
Center. We also gathered procurement workforce data from each of the other NASA Centers.
We performed the audit in accordance with generally accepted government auditing standards.




                                              10
                     Appendix B. Acquisition Reform Initiatives

Simplified Acquisition Threshold. The Federal Acquisition Regulation (FAR) Part 13.003 states
that "[a]gencies shall use simplified acquisition procedures to the maximum extent practicable for all
purchases of supplies or services not exceeding the simplified acquisition threshold." Simplified
acquisitions are the acquisitions of supplies and services, including construction, research and
development, and commercial items that do not exceed the simplified acquisition threshold of
$100,000. The threshold is $100,000, except that the threshold is $200,000 in the case of any
contract to be awarded and performed, or purchase to be made, outside the United States in
support of a contingency operation (as defined in 10 U.S.C. 101(a)(13)) or a humanitarian or
peacekeeping operation (as defined in 10 U.S.C. 2302(8) and 41 U.S.C. 259(d)). The FAR
prescribes simplified acquisition procedures intended to:

        •   reduce administrative costs;
        •   improve opportunities for small, small disadvantaged, and women-owned small business
            concerns to obtain a fair proportion of Government contracts;
        •   promote efficiency and economy in contracting; and
        •   avoid unnecessary burdens for agencies and contractors.

Multiple Award Contracts. The Federal Acquisition Streamlining Act (FASA) of 1994
authorized agency heads to enter into multiple award delivery and task order contracts for the
procurement of goods and services. Multiple award contracts occur when two or more contracts
are awarded from one solicitation. FASA recommends that agencies use multiple awards and
requires that the implementing FAR "establish a preference for awarding, to maximum extent
practicable, multiple task or delivery order contracts for the same or similar services or property."
Multiple award contracts are excellent tools for avoiding duplicative solicitations and for accelerating
the contracting process.

Purchase Cards. FAR Part 13.003 states that “… agencies shall use the Governmentwide
commercial purchase card and electronic purchasing techniques to the maximum extent practicable
in conducting simplified acquisitions.” Part 13.201 states that the Governmentwide commercial
purchase card shall be the preferred method to purchase and pay for micropurchases (that is,
purchases less than $2,500). Part 13.301 states that the Governmentwide commercial purchase
card is authorized for use in making and/or paying for the purchase of supplies, services, or
construction. The card may be used only for purchases that are otherwise authorized by law or
regulation. NASA reported to the OFPP that in FY 2000, NASA employees used purchase cards
to complete 94 percent of the Agency's micropurchases with a resultant cost savings of $12.6
million.

Consolidated Contracting Initiative. The Agency's Consolidated Contracting Initiative (CCI)
goal is to develop a core of world-class contracts that will enable NASA to acquire common goods
and services quickly, at fair and reasonable prices, and at a low administrative cost. Many of the
contracts that are accessible through the CCI allow electronic ordering through the Internet. The
General Services Administration has cited

                                                  11
Appendix B

NASA's CCI as an example of making greater use of existing contracts to meet common needs.
The Office of Management and Budget 1999 report to the Congress on "Electronic Purchasing and
Payment in the Federal Government" states that the CCI has substantially increased NASA's use of
existing contracts--lessening time spent on acquisition-related tasks, minimizing contract duplication,
reducing closeout backlogs, and improving contract cooperation with other Federal agencies.




                                                  12
Appendix C. Management’s Response




               13
Appendix C




             14
     Appendix C




15
Appendix C




             16
                           Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Acting Director, Lyndon B. Johnson Space Center
Director, Kennedy Space Flight Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Acting Director, Stennis Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget


                                                 17
Appendix D

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               18
                      NASA Assistant Inspector General for Audits
                                   Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Audits; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Procurement Workforce Planning

Report Number:                                         Report Date:


               Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                        Media
       NASA Employee                              Public Interest
       Private Citizen                            Other:
       Government:               Federal:             State:        Local:


May we contact you about your comments?

Yes: ______            No: ______


Name: _______________________


Telephone: ___________________




Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Program Manager

Walter K. Curtis, Auditor-in-Charge

Mary Anderson, Auditor

Amy Larkin, Auditor

Stephen Siu, Auditor

Nancy C. Cipolla, Report Process Manager

Debra A. Schuerger, Program Assistant
